.,~
                          DEPARTMENT OF
                          DEPARTMENT OF HEALTH
                                        HEALTH &.
                                               &. HUMAN SERVICES                                       Office of
                                                                                                       Office of Inspector General
                                                                                                                           General
("...'"~E

  ~'.J:S"VICES."'~                                                                                     Washington, D.C. 20201
                                                                                                       Washington, D.C.




                                                         APR22222009
                                                         APR     20

                 TO:
                 TO:       Charlene  Frizzera
                                Charlene Frizzera
                                   Acting Administrator
                                   Centers for Medicare &
                                                        & Medicaid Services


                 FROM:
                 FROM:~~hte~
                   ~:;~ty
                          ~lhte~         Inspector
                             ~:;~ty Inspector      General
                                               General  forforAudit
                                                               AuditServices

                                                                     Services


                 SUBJECT: Review
                           Reviewofof
                                    Interrpted Stays
                                      Interrupted     at at
                                                  Stays  Inpatient
                                                            InpatientRehabilitation
                                                                      RehabilitationFacilities
                                                                                    Facilities for
                            Calendar Years 2004 and 2005 (A-Ol-08-00502)


                               final report provides the results of our review of interrupted stays at inpatient
                 The attached final
                 rehabilitation facilities (IRF) for calendar years (CY) 2004 and 2005.

                 Medicare reimburses IRFs through a prospective payment system, which provides for a
                 predetermined,                   payment. Adjustments
                 predetermined, per-discharge payment.      Adjustments maymay apply
                                                                                 apply to the prospective payment in
                 certain circumstances, such as an interrupted stay in which a Medicare inpatient is discharged
                 from an
                 from  an IRF
                          IRF and
                               and returns
                                   returns to
                                           to the
                                               the same
                                                   same IRF
                                                         IRF within
                                                              within 33 consecutive
                                                                        consecutive calendar
                                                                                     calendar days.
                                                                                               days. In that case,
                                                                                                             case, the
                      should combine
                 IRF should   combine the
                                       the interrupted
                                            interrpted stay
                                                        stayinto
                                                             intoaasingle
                                                                    single claim
                                                                            claim and
                                                                                  and receive
                                                                                      receive aa single
                                                                                                 single discharge
                                                                                                        discharge
                 payment.

                 Our prior review
                           review (A-Ol-04-00525)
                                    (A-Ol-04-00525) found  found that
                                                                  that IRFs
                                                                       IRFs did
                                                                            did not
                                                                                not always
                                                                                    always bill
                                                                                            bil for interrupted stays in
                 compliance with Medicare prospective
                                                prospective payment
                                                              payment system
                                                                         system regulations
                                                                                 regulations during
                                                                                             duringCYCYss 2002 and 2003.
                    response to
                 In response  to one of our recommendations, the Centers for Medicare &         & Medicaid Services
                 (CMS)   implemented    an  edit in  its Common     Working   File on Aprill,
                 (CMS) implemented an edit in its Common Working File on Aprill, 2005, to      2005,  to identify
                                                                                                         identify all
                                                                                                                  all
                 interrupted stays billed
                 interrpted stays  biled asas two
                                               two or
                                                    or more   claims.
                                                         more claims.



                 Our objectives were to determine whether:

                     •.     IRFs
                          IRFs   billed
                               biled    correctlyfor
                                      correctly   forinterrupted
                                                      interrupted stays
                                                                  stays with
                                                                        with discharge
                                                                             discharge dates
                                                                                       dates during
                                                                                              during CYs
                                                                                                      CY s 2004
                                                                                                            2004 and
                                                                                                                 and
                           2005
                           2005 and
                                and



                     •. thethe
                             new
                               newCommon
                                   CommonWorking
                                            WorkingFile
                                                    Fileedit
                                                         editdetected
                                                              detected incorrectly billed
                                                                                   biled interrpted
                                                                                          interruptedstays
                                                                                                      stays and
                                                                                                            and
                           prevented overpayments.

                 IRFs did not always bill correctly for interrupted
                                                        interrupted stays
                                                                    stays with
                                                                          with discharge
                                                                                discharge dates
                                                                                             dates during
                                                                                                    duringCYCYss 2004 and
                 2005. Our
                 2005.  Our nationwide
                             nationwide computer match showed that 448  448 IRFs
                                                                             IRFs billed
                                                                                   biled incorrectly
                                                                                           incorrectly for 986
                 interrpted stays
                 interrupted staysduring
                                   duringthat
                                          thatperiod.
                                              period. We
                                                       Wedetermined
                                                            determinedthat
                                                                        thatthe
                                                                             the correct
                                                                                  correct value
                                                                                          value of
                                                                                                 ofthe
                                                                                                     the stays
                                                                                                         stays was
Page 2 – Charlene Frizzera


$17.5 million, rather than the $21.7 million that the IRFs billed. As a result, Medicare made net
overpayments of $4.2 million to the IRFs. The payment errors occurred because the IRFs did not
have the necessary controls to identify or correctly bill interrupted stays. Additionally, until
April 2005, the Common Working File did not have an edit designed to identify all interrupted
stays billed as two or more claims.

After its adoption, the new Common Working File edit effectively detected incorrectly billed
interrupted stays and prevented overpayments to IRFs.

We recommend that CMS direct its fiscal intermediaries to recover the $4.2 million in net
overpayments that our review identified.

In its written comments on our draft report, CMS concurred with our recommendation. We have
provided CMS with detailed claim information to assist in the recovery process.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov. Please refer
to report number A-01-08-00502 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF INTERRUPTED STAYS
AT INPATIENT REHABILITATION
  FACILITIES FOR CALENDAR
    YEARS 2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-01-08-00502
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Inpatient rehabilitation facilities (IRF) provide rehabilitation for patients who require a hospital
level of care, including a relatively intense rehabilitation program and a multidisciplinary,
coordinated team approach to improve their ability to function. Section 1886(j) of the Social
Security Act established a Medicare prospective payment system for IRFs. The Centers for
Medicare & Medicaid Services (CMS) implemented the prospective payment system for cost
reporting periods beginning on or after January 1, 2002.

The prospective payment system provides for a predetermined, per-discharge payment. The
payment system uses information from a patient assessment instrument to classify patients into
distinct case-mix groups based on clinical characteristics and expected resource needs.
Adjustments may apply to the case-mix-group payment in certain circumstances, such as an
interrupted stay in which a Medicare inpatient is discharged from an IRF and returns to the same
IRF within 3 consecutive calendar days. In that case, the IRF should combine the interrupted
stay into a single claim and receive a single discharge payment.

Our prior review (A-01-04-00525) found that IRFs did not always bill for interrupted stays in
compliance with Medicare prospective payment system regulations during calendar years
(CY) 2002 and 2003. In response to one of our recommendations, CMS implemented an edit in
its Common Working File on April 1, 2005, to identify all interrupted stays billed as two or more
claims.

OBJECTIVES

Our objectives were to determine whether:

   •   IRFs billed correctly for interrupted stays with discharge dates during CYs 2004 and
       2005 and

   •   the new Common Working File edit detected incorrectly billed interrupted stays and
       prevented overpayments.

SUMMARY OF FINDINGS

IRFs did not always bill correctly for interrupted stays with discharge dates during CYs 2004 and
2005. Our nationwide computer match showed that 448 IRFs billed incorrectly for 986
interrupted stays during that period. We determined that the correct value of the stays was
$17.5 million, rather than the $21.7 million that the IRFs billed. As a result, Medicare made net
overpayments of $4.2 million to the IRFs. The payment errors occurred because the IRFs did not
have the necessary controls to identify or correctly bill interrupted stays. Additionally, until
April 2005, the Common Working File did not have an edit designed to identify all interrupted
stays billed as two or more claims.




                                                  i
After its adoption, the new Common Working File edit effectively detected incorrectly billed
interrupted stays and prevented overpayments to IRFs.

RECOMMENDATION

We recommend that CMS direct its fiscal intermediaries to recover the $4.2 million in net
overpayments that our review identified.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendation. CMS requested
that we provide the contractor-specific data necessary to initiate and complete recovery action.
We have provided CMS with the requested data.

CMS’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              The Prospective Payment System for
                Inpatient Rehabilitation Facilities ............................................................1
              Prior Office of Inspector General Report.....................................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY.................................................1
               Objectives ....................................................................................................1
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATION.......................................................................3

          BILLING FOR INTERRUPTED STAYS...............................................................3
                Federal Regulations .....................................................................................3
                Interrupted Stays Incorrectly Billed as Two or More Claims......................3
                Payment Errors Resulting From Incorrect Billing .......................................4
                Causes of Incorrect Billing ..........................................................................5

          EFFECTIVENESS OF NEW COMMON WORKING FILE EDIT .......................5

          RECOMMENDATION ...........................................................................................5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............5

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                   iii
                                        INTRODUCTION

BACKGROUND

The Prospective Payment System for Inpatient Rehabilitation Facilities

Inpatient rehabilitation facilities (IRF) provide rehabilitation for patients who require a hospital
level of care, including a relatively intense rehabilitation program and a multidisciplinary,
coordinated team approach to improve their ability to function. Section 1886(j) of the Social
Security Act established a Medicare prospective payment system for IRFs. The Centers for
Medicare & Medicaid Services (CMS) implemented the prospective payment system for cost
reporting periods beginning on or after January 1, 2002.

The prospective payment system provides for a predetermined, per-discharge payment. The
payment system uses information from a patient assessment instrument to classify patients into
distinct case-mix groups based on clinical characteristics and expected resource needs.
Adjustments may apply to the case-mix-group payment in certain circumstances, such as an
interrupted stay in which a Medicare inpatient is discharged from an IRF and returns to the same
IRF within 3 consecutive calendar days. In that case, the IRF should combine the interrupted
stay into a single claim and receive a single discharge payment. Other adjustments to the case-
mix-group payment include outlier payments to compensate the IRF for cases incurring
extraordinarily high costs, transfer adjustments that may apply when a patient is transferred from
an IRF to another facility, and short-stay adjustments that apply when the IRF stay lasts 3 days or
less and does not involve a transfer.

Medicare paid $6.6 billion for 500,264 claims involving 1,233 IRFs in calendar year (CY) 2004
and $6.3 billion for 442,461 claims involving 1,243 IRFs in CY 2005.

Prior Office of Inspector General Report

Our prior review (A-01-04-00525) found that IRFs did not always bill for interrupted stays in
compliance with Medicare prospective payment system regulations during CYs 2002 and 2003.
We recommended, among other actions, that CMS strengthen the edit in its Common Working
File to detect all interrupted stays incorrectly billed as two or more claims and to prevent
associated payments. In its written comments on that draft report, CMS stated that it had
implemented the recommended edit as of April 1, 2005.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether:

   •   IRFs billed correctly for interrupted stays with discharge dates during CYs 2004 and
       2005 and




                                                  1
   •    the new Common Working File edit detected incorrectly billed interrupted stays and
        prevented overpayments.

Scope

We reviewed 1,991 nationwide Medicare claims totaling $21.7 million for interrupted IRF stays
with discharge dates during CYs 2004 and 2005.

We limited our review of CMS’s internal controls to obtaining an understanding of the controls
in the Common Working File to detect improperly billed interrupted stays and prevent
overpayments to IRFs. At the 10 IRFs that we contacted, we limited our review of internal
controls to the development and submission of Medicare claims that included interrupted stays.

Our fieldwork consisted of contacting the 10 IRFs by phone, mail, and/or site visits during June–
August 2008.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    reviewed controls in the Common Working File intended to detect improperly billed
        interrupted stays and prevent overpayments;

   •    extracted paid claim data from CMS’s National Claims History for CYs 2004 and 2005;

   •    developed a computer match to identify situations in which IRFs submitted two or more
        claims for a single IRF interrupted stay by flagging instances in which the “from” date of
        a claim was within the 3-day window for interrupted stays when compared with the
        “through” date of a previous claim for the same patient;

   •    reviewed the Common Working File detail for the interrupted stays identified by our
        computer match to validate the results of our match and to verify that the selected claims
        had not been canceled;

   •    calculated the effect of incorrect billing by combining each incorrectly billed interrupted
        stay into a claim for payment for a single discharge and either (1) repricing the
        interrupted stay using CMS’s PRICER program or (2) repricing the interrupted stay
        manually using information from the IRF’s fiscal intermediary and Medicare regulations
        if we did not find an IRF’s provider-specific information in CMS’s PRICER program;

   •    judgmentally selected a sample of 50 incorrectly billed interrupted stays from 10 IRFs
        and contacted representatives from these IRFs by phone, mail, and/or site visits to
        identify control weaknesses and validate our data; and




                                                 2
       •    discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    FINDINGS AND RECOMMENDATION

IRFs did not always bill correctly for interrupted stays with discharge dates during CYs 2004 and
2005. Our nationwide computer match showed that 448 IRFs billed incorrectly for 986
interrupted stays during that period. We determined that the correct value of the stays was
$17.5 million, rather than the $21.7 million that the IRFs billed. As a result, Medicare made net
overpayments of $4.2 million to the IRFs. The payment errors occurred because the IRFs did not
have the necessary controls to identify or correctly bill interrupted stays. Additionally, until
April 2005, the Common Working File did not have an edit designed to identify all interrupted
stays billed as two or more claims.

After its adoption, the new Common Working File edit effectively detected incorrectly billed
interrupted stays and prevented overpayments to IRFs.

BILLING FOR INTERRUPTED STAYS

Federal Regulations

Federal regulations (42 CFR § 412.602) define an interrupted stay at an IRF as a stay during
which a Medicare inpatient is discharged from the IRF and then readmitted to the same IRF
before midnight of the third day after discharge. Pursuant to 42 CFR §§ 412.618(a) and
412.624(g)(2), IRFs receive one discharge payment for an interrupted stay based on the case-
mix-group classification that is determined by the patient assessment performed at the initial
admission.

Interrupted Stays Incorrectly Billed as Two or More Claims

We found that IRFs did not always bill for interrupted stays in compliance with prospective
payment system regulations. During CYs 2004 and 2005, 448 IRFs incorrectly billed 986
interrupted stays. 1 IRFs billed each of the interrupted stays as two or more separate claims, with
each claim representing the portion of the stay either before or after an interruption. 2

In the following example, an IRF received both a per diem transfer payment ($3,210) and a full
case-mix-group payment ($10,700) instead of a single payment of $10,700 because it billed an


1
    Most of the interrupted stays occurred because the beneficiary had an intervening stay in an acute-care hospital.
2
    For a stay billed as three separate claims, the beneficiary’s IRF stay was interrupted twice.



                                                              3
interrupted stay as two separate claims. 3 As a result, Medicare overpaid the IRF $3,210 for the
interrupted stay.

                           Example: Interrupted Stay Billed as Two Claims


January 9, 2004                 January 13, 2004                January 15, 2004                 January 30, 2004

      Beneficiary
    admitted to IRF
                        →           Beneficiary
                                   transferred to
                                                        →           Beneficiary
                                                                 readmitted to the
                                                                                        →            Beneficiary
                                                                                                    discharged to
                                     acute-care                      same IRF                           home
                                      hospital

                                         ↓                                                                    ↓
                                  IRF Claim #1                                                      IRF Claim #2
                                Billed for period                                                 Billed for period
                               January 9–13, 2004                                               January 15–30, 2004

                                Medicare paid a                                                 Medicare paid a full
                              transfer payment of                                               discharge payment
                                     $3,210                                                         of $10,700

Payment Errors Resulting From Incorrect Billing

During CYs 2004 and 2005, Medicare made net overpayments totaling $4.2 million to IRFs
nationwide for the 986 interrupted stays billed as two or more claims. Approximately
84 percent of the incorrect billings resulted in overpayments. However, some IRFs received
underpayments when they failed to combine two or more claims into a single claim that would
have exceeded certain payment thresholds. In those cases, high-cost outlier payments or full
case-mix-group payments would have been warranted, instead of the reduced transfer payments
or short-stay payments that CMS made based on the incorrect billings.

The following table summarizes the payment errors that resulted from incorrectly billed
interrupted IRF stays.

                                    Incorrectly Billed Interrupted Stays

                                 Overpayments               Underpayments                 Net
               Period           No.       Amount           No.       Amount          Overpayments
              CY 2004          764       $4,318,111        139      ($474,819)         $3,843,292
              CY 2005           67          415,654         16        (40,969)            374,685
               Total           831       $4,733,765        155      ($515,788)         $4,217,977


3
 A transfer payment is appropriate only if the patient’s IRF stay is shorter than the average stay for the case-mix
group and the beneficiary is transferred to another facility (42 CFR § 412.602).



                                                           4
Causes of Incorrect Billing

Our review at 10 IRFs found that payment errors continued to occur because the IRFs did not
have adequate billing controls. Additionally, until April 2005, Medicare payment controls in the
Common Working File were not designed to identify all interrupted stays billed as two or more
claims and to prevent improper payments.

EFFECTIVENESS OF NEW COMMON WORKING FILE EDIT

The Common Working File edit implemented on April 1, 2005, effectively detected incorrectly
billed interrupted stays and prevented overpayments to IRFs. We found no incorrectly paid
interrupted stay claims processed in 2005 after the edit was implemented.

RECOMMENDATION

We recommend that CMS direct its fiscal intermediaries to recover the $4.2 million in net
overpayments that our review identified.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS agreed with our recommendation. CMS requested
that we provide the contractor-specific data necessary to initiate and complete recovery action.
We have provided CMS with the requested data.

CMS’s comments are included in their entirety as the Appendix.




                                               5
APPENDIX
                                                                                                            APPENDIX
                                                                                                            Page 1 of 2
r-··4:8·~

\......4­   OEPARTMEN'l' OF HEALTH & HUMAN SERVICES                                Centers for Medicare & MedicaId Sel\lices


                                                                                   Administrator
                                                                                   Wa5hinylQn, DC 20201




                                                                                                           t···· J
                                                                                                           §
                                                                                                             d::>
                                                                                                   ,         ::~
            DATE:	       MAR 1 9 2009	                                                         (;}
                                                                                                       I      ~~o
                                                                                                IT',

            TO:	          Joseph E. Vengrin                                                     ~~.
                          Deputy Inspector General for Audit Services                            ~,
                                                                                                 ,
                                                                                                     r'
            FROM;	         Charlene Frizzera    / "I .                  ~
                           Acting Administrator ~                                ., ~~

            SUBJECT:	 Office of InspectoT General (OIG) Draft Report: "Review of Interrupted
                           Stays at Inpatient Rehabilitation Facilities for Calendar Years 2004 Wld
                           2005" (A-OI-08-00502)


            Thank you for the opportunity to review and comment on the above-referenced DIG draft
            report.

            Medicare reimburses inpatient rehabilitation facilities (IRFs) through a prospective
            payment system, which provides a predetennined, per-discharge payment. Adjustments
            may apply to the prospective payment amount if an interrupted stay occurs. An
            interrupted stay happens when a Medicare inpatient is discharged from an IRF and
            returns to the same IRF within 3 consecutive calendar days. When this occurs, the IRF
            should combine the interrupted stay into a single claim and receive a single discharge
            payment. In a prior audit covering calendar years 2002 and 2003, the 010 did find that
            IRFs did not always bill for interrupted stays in compliance with Medicare prospective
            payment system regulations.

            In this most recent audit ofIRFs, the OIG performed a ~omputer match on 986
            interrupted stays during calendar years 2004 and 2005 and found that 448 IRF bills were
            improperIypaid. This resulted in an overpayment to IRFs in the amount of$4.2 million.
            The OIG also fOWld that the payment errors occurred because the JRFs lacked
            the necessary controls to identify interrupted stays and that the Common Working File
            edit to identify interrupted stays billed under multiple claims was not implemented until
            the year 2005.

            QlG Recommendation

            The ora reconunends that eMS direct its fIscal intermediaries to recover the $4.2
            miHion in net overpayments that the 010 review identified.
                                                                                             APPENDIX
                                                                                             Page 2 of 2



Page 2 - Joseph E. Vengrln

eMS Response

We concur. eMS shall direct the Medicare fiscal intermediaries and Medicare
administrative contractors to recover the $4.2 million in overpayments. eMS plans to
recover the overpayments identified consistent with the Agency's policies and
procedures. eMS requests that the oro furnish. for each overpayment or potential
overpayment, the data necessary (provider numbers, claims infonnation including the
paid date, health insurance claim numbers, etc.) to initiate and complete recovery action.
In addition, Medicare contractor-specific data should be written to separate CD-ROMs in
order to betteT facilitate the transfer of information to the a.ppropriate contractors.
We thank the 010 for conducting this audit and find their input to be very valuable.
